                            Office of Inspector General
                           Corporation for National and
                                    Community Service




             AUDIT OF THE
    CORPORATION FOR NATIONAL AND
         COMMUNITY SERVICE’S
FISCAL YEAR 2009 FINANCIAL STATEMENTS

          Audit Report Number 10- 01




                       Prepared by:

               CLIFTON GUNDERSON LLP
                  11710 Beltsville Drive
                Calverton, Maryland 20705




 This report was issued to Corporation management on November 13, 2009.
 Under the laws and regulations governing audit follow up, the Corporation is to
 make final management decisions on the report’s findings and
 recommendations no later than May 13, 2010, and complete its corrective
 actions by November 12, 2010. Consequently, the reported findings do not
 necessarily represent the final resolution of the issues presented.
                              OFFICE OF INSPECTOR GENERAL
                                         November 13, 2009


TO:              Nicola Goren
                 Acting Chief Executive Officer


FROM:            Kenneth Bach /s/
                 Acting Inspector General


SUBJECT:         Audit of the Corporation for National and Community Service’s
                 Fiscal Year 2009 Financial Statements
                 OIG Audit Report Number 10-01

We contracted with the independent certified public accounting firm of Clifton Gunderson LLP
(Clifton) to audit the consolidated financial statements of the Corporation for National and
Community Service (Corporation) as of September 30, 2009 and 2008, and for the years then
ended. The contract required that the audit be performed in accordance with generally
accepted government auditing standards.

In its audit, Clifton found

         The financial statements were fairly presented, in all material respects, in conformity with
          generally accepted accounting principles;

         No material weaknesses or significant deficiencies in the Corporation’s internal controls;

         No instances of noncompliance with relevant laws and regulations.

Clifton Gunderson is responsible for the attached auditor’s report, dated November 10, 2009,
and the conclusions expressed therein. The Office of Inspector General does not express an
opinion on the Corporation’s Financial Statements or Clifton’s conclusions about the
effectiveness of internal control or compliance with laws and regulations.

Attachment

cc:       William Anderson, Acting Chief Financial Officer
          Frank Trinity, General Counsel
          Kristin McSwain, Chief of Program Operations
          Rocco Gaudio, Deputy CFO for Planning and Program Management
          Mary Cadagin, Chief Information Officer
          Bridgette Roy, Audit Liaison and Administrative Assistant
          Bill Oliver, Engagement Partner, Clifton Gunderson LLP (without attachment)



                  1201 New York Avenue, NW  Suite 830  Washington, DC 20525
                      202-606-9390  Hotline: 800-452-8210  www.cncsoig.gov

                         Senior Corps  AmeriCorps  Learn and Serve America
a1
                                    Independent Auditor’s Report


To the Board of Directors
 and Inspector General
Corporation for National and Community Service


We have audited the accompanying consolidated statements of financial position of the
Corporation for National and Community Service (Corporation) as of September 30, 2009 and
2008, and the related consolidated statements of operations and changes in net position and
cash flows, and the combined statements of budgetary resources (hereinafter referred to as the
“financial statements”) for the years then ended. These financial statements are the
responsibility of Corporation management. Our responsibility is to express an opinion on these
financial statements based on our audits.

We conducted our audits in accordance with auditing standards generally accepted in the
United States of America; the standards applicable to financial audits contained in Government
Auditing Standards issued by the Comptroller General of the United States; and applicable
provisions of Office of Management and Budget Bulletin No. 07-04, Audit Requirements for
Federal Financial Statements, as amended. Those standards require that we plan and perform
the audit to obtain reasonable assurance about whether the financial statements are free of
material misstatement. An audit includes examining, on a test basis, evidence supporting the
amounts and disclosures in the financial statements. An audit also includes assessing the
accounting principles used and significant estimates made by management, as well as
evaluating the overall financial statement presentation. We believe that our audits provide a
reasonable basis for our opinion.

In our opinion, the financial statements referred to above present fairly, in all material respects,
the financial position of the Corporation as of September 30, 2009 and 2008, and the results of
its operations and changes in net position, budgetary resources, and cash flows for the years
then ended in conformity with accounting principles generally accepted in the United States of
America.




11710 Beltsville Drive, Suite 300
Calverton, MD 20705-3106


                                                                                  h
tel: 301-931-2050
fax: 301-931-1710                                     1
www.cliftoncpa.com                   Offices in 17 states and Washington, DC
In accordance with Government Auditing Standards, we have also issued our reports dated
November 10, 2009, on our consideration of the Corporation’s internal control over financial
reporting and on our tests of its compliance with certain provisions of laws and regulations and
other matters. The purpose of those reports is to describe the scope of our testing of internal
control over financial reporting and compliance and the results of that testing, not to provide an
opinion on internal control over financial reporting or compliance. Those reports are an integral
part of our audit performed in accordance with Government Auditing Standards and should be
considered in assessing the results of our audit.


a1
Calverton, Maryland
November 10, 2009




                                                2
        Corporation for
 National & Community Service

    Fiscal Year 2009 and 2008

Consolidated Financial Statements




                3
CONSOLIDATED FINANCIAL STATEMENTS
These consolidated financial statements report the Corporation for National and Community
Service's financial position, results of operations, cash flows, and budgetary resources, as
required by the Government Corporation Control Act (Act) and Executive Order 13331,
National and Community Service Programs. The Government Corporation Control Act
requires that government corporations submit an annual report to the Congress within 180 days
of the fiscal year end. As specified in the Act, the principal financial statements of the
Corporation are the:

    •   Statement of Financial Position, which reports the status of Corporation assets,
        liabilities, and net position.

    •   Statement of Operations and Changes in Net Position, which reports the Corporation's
        revenues and expenses for the year and the changes in net position that occurred
        during the year.

    •   Statement of Cash Flows, which shows how changes in the Corporation's financial
        position and results affected its cash (Fund Balance with Treasury), and breaks the
        analysis down according to operating, investing, and financing activities.
In addition, under the requirements of EO 13331, the Corporation prepares a Statement of
Budgetary Resources (SBR). The SBR provides information about the budgetary resources
made available to the Corporation as well as the status of those resources at the end of the fiscal
year.
These financial statements present comparative information for fiscal 2009 and 2008. For fiscal
2009, the Corporation's financial statements, for the tenth consecutive year, received an
unqualified opinion. This opinion recognizes that the Corporation's financial statements are
fairly presented, in all material respects, and in conformity with generally-accepted accOlmting
principles.

Limitations of the Financial Statements
The principal financial statements have been prepared in compliance with the reporting
requirements described above. The Corporation's financial statements published herein are in
addition to the financial reports it uses to monitor and control budgetary resources which are
prepared from the same books and records. The statements should be read with the realization
that they are for a component of the U.S. Government, a sovereign entity. One implication of
this is that liabilities cannot be liquidated without legislation that provides the resources to do
so.

Passage of the Edward M. Kennedy Serve America Act

On April 21, 2009, the Edward M. Kennedy Serve America Act (Public Law 111-13)
reauthorized and expanded the mission and operations of the Corporation. However, the
provisions of Public Law 111-13 did not take effect until October 1, 2009. Therefore, these
financial statements and the accompanying notes do not reflect activities and operations tmder
the amendments made by the Edward M. Kennedy Serve America Act.




                                                    4
                   Corporation for National and Community Service
                    Consolidated Statements of Financial Position
                                 As of September 30
                                         (dollars in thousands)


ASSETS                                                                 2009               2008
Fund Balance with Treasury (Note 2)                               $     950,532      $     822,989
Trust Investments and Related Receivables (Note 3)                      519,838            483,880
Advances to Others                                                       67,521             59,388
AccOlmts Receivable, Net (Note 4)                                         2,763               2,616
Property and Equipment, Net (Note 5)                                       1,709              3,043·
  Total Assets                                                    $   1,542,363      $    1,371,916



LIABILITIES
Trust Service Award Liability (Note 6)                            $     324,067      $     303,367
Grants Payable                                                          105,084             89,456
Accounts Payable                                                          2,031               7,231
Actuarial FECA Liability (Note 8)                                        11,365             11,638
Other Liabilities                                                        16,774              14,200
Accrued Annual Leave                                                      3,120               3,164
Advances from Others                                                          14                 290
Capital Lease Liability                                                                          250
  Total Liabilities                                                     462,455            429,596


Contingencies (Note 14)

NET POSITION
Unexpended Appropriations                                               890,956            769,016
Cumulative Results of Operations                                        188,952            173,304
  Total Net Position (Note 9)                                         1,079,908            942,320



Total Liabilities and Net Position                                $   1,542,363      $    1,371,916




             The accompanying notes are an integral part of these financial statements.

                                                   5
                Corporation for National and Community Service
        Consolidated Statements of Operations and Changes in Net Position
                        For the Years Ended September 30
                                            (dollars ill thousallds)


REVENUE                                                                    2009             2008
Appropriated Capital Used                                              $    770,708     $    748,580
Appropriations Transferred to the Trust Fund (Note 10)                      174,932          138,785
Interest                                                                      12,236           17,804
Other                                                                         12,598            8,887
  Total Revenue                                                             970,474          914,056



EXPENSES
AmeriCorps                                                                  661,482          630,424
SeniorCorps                                                                 238,805          236,794
Learn and Serve America                                                      47,812           42,436
  Subtotal - Program Expenses                                               948,099          909,654
Pass-through Grants                                                               682              163
Office of the Inspector General                                                6,045            6,284
   Total Expenses (Note 11)                                                 954,826          916,101


Net of Revenue Over Expenses                                           $     15,648     $      (2,045)


NET POSITION
Net of Revenue over Expenses                                           $     15,648     $      (2,045)
Increase/(Decrease) in Unexpended Appropriations, Net (Note                 121,940           (59,581)
Increase/ (Decrease) in Net Position, Net                                   137,588           (61,626)
Net Position, Beginning Balance                                             942,320         1,003,946


  Net Position, Ending Balance (Note 9)                                $   1,079,908    $    942,320




              The accompanying notes are an integral part of these financial statements.

                                                       6
                   Corporation for National and Community Service
                       Consolidated Statements of Cash Flows
                          For the Years Ended September 30
                                             (dollars in thousands)

CASH FLOWS FROM OPERATING ACTIVITIES                                      2009                2008
Net of Revenue over Expenses                                          $      15,648      $       (2,045)

Adjustments Affecting Cash Flow:
  Appropriated Capital Used                                                (770,708)          (748,580)
  Appropriations Received in Trust                                         (174,932)          (138,785)
  Decrease/(Increase) in Accounts Receivable                                     (147)               631
  Decrease/(Increase) in Interest Receivable                                     (141)               (697)
  Decrease/ (Increase) in Advances                                           (8,133)              2,587
  Increase/ (Decrease) in Accounts Payable and Other Liabilities             (2,626)              2,147
  Increase/(Decrease) in FECA and Annual Leave Liabilities                       (317)               (249)
  Increase/(Decrease) in Capital Lease Liability                                 (250)
  Increase / (Decrease) in Trust Liability                                  20,700              22,770
  Increase/(Decrease) in Grants Payable                                     15,628              (10,349)
  Amortization of Prernimn/Discount on Investments                            1,647              (4,192)
  Depreciation, Amortization, and Loss on Disposition of Assets               1,334               1,731
     Total Adjustments                                                     (917,945)          (872,986)
Net Cash Providedl(Used) by Operating Activities                           (902,297)          (875,031)


CASH FLOWS FROM INVESTING ACTIVITIES
Purchase of Property and Equipment                                                               (2,667)
Sales of Securities                                                        844,999           1,093,279
Purchase of Securities                                                     (882,739)         (1,106,881)
Net Cash Provided/(Used) in Investing Activities                            (37,740)            (16,269)


CASH FLOWS FROM FINANCING ACTIVITIES
Appropriations Received, Net of Trust                                     1,090,866            871,558
Rescissions and Cancellations                                               (23,286)            (43,774)
Net Cash Provided by Financing Activities                                 1,067,580            827,784


Net Increase/(Decrease) in Fund Balance with Treasury                      127,543              (63,516)


Fund Balance with Treasury, Beginning                                      822,989             886,505


Fund Balance with Treasury, Ending                                    $    950,532       $     822,989


            The accompanying notes are an integral part of these financial statements.

                                                       7
                    Corporation for National and Community Service
                     Combined Statements of Budgetary Resources
                           For the Years Ended September 30
                                         (dollars in thaI/sands)


BUDGETARY RESOURCES                                                    2009                  2008
Unobligated balance, brought forward, October 1                    $    145,061       $       177,320
Recoveries of prior year unpaid obligations                              25,335                40,444


Budget authority:
 Appropriation                                                         1,273,580             1,027,007
 Spending authority from offsetting collections:
     Collected                                                           13,075                 9,070
     Change in receivables from Federal sources                            (338)                  (491)
 Change in unfilled customer orders:
    Advance received                                                          (276)               374
    Without advance from Federal sources                                      (932)                65
   Total budget authority                                              1,285,109             1,036,025

Permanently not available                                                (23,286)              (43,843)
   Total budgetary resources                                       $   1,432,219      $     1,209,946



STATUS OF BUDGETARY RESOURCES
Obligations incurred (Note 16)                                     $   1,244,611      $     1,064,885
Unobligated balance:
 Apportioned                                                            104,506                 2,927
 Unobligated balance not available                                       83,102               142,134
   Total status of budgetary resources                             $   1,432,219      $     1,209,946


                                                                                          (Continued)




            The accompanying notes are an integral part of these financial statements.

                                                   8
                    Corporation for National and Community Service
                     Combined Statements of Budgetary Resources
                           For the Years Ended September 30
                                           (dollars in thousands)



(Continued)
                                                                         2009              2008
CHANGE IN OBLIGATED BALANCE
Obligated balance, net:
  Unpaid obligations, brought forward, October 1                    $   1,150,605     $    1,165,718
  Uncollected customer payments from Federal sources,
   brought forward, October 1                                               (1,270)            (1,694)
      Totallmpaid obligated balance, net                                1,149,335          1,164,024


Obligations incurred, net                                               1,244,611          1,064,885
Gross outlays                                                           (1,104,109)        (1,039,557)
Recoveries of prior year unpaid obligations, actual                        (25,335)          (40,444)
Change in uncollected customer payments from Federal sources                 1,270               427
      Total unpaid obligated balance, net, end of period            $   1,265,772     $    1,149,335
Obligated balance, net, end of period:
  Unpaid obligations                                                $   1,265,772     $    1,150,605
  Uncollected customer payments from Federal sources                                          (1,270)
      Total unpaid obligated balance, net, end of period            $   l,Z65,772     $    1,149,335


NET OUTLAYS
Gross outlays                                                       $   1,104,109     $    1,039,557
Offsetting collections                                                    (12,799)            (9,444)
Distributed offsetting receipts                                          (175,838)          (140,450)
      Net outlays                                                   $     915,472     $      889,663




              The accompanying notes are an integral part of these financial statements.

                                                     9
NOTE 1 - SUMMARY OF SIGNIFICANT ACCOUNTING POLICIES
    A. REPORTING ENTITY
The Corporation for National and Community Service (Corporation) was created by the
National and Community Service Trust Act of 1993 (Public Law 103-82). The Corporation's
mission in fiscal year 2009 was to improve lives, strengthen communities, and foster civic
engagement through service and volunteering. To meet its mission, the Corporation provided
grants and other assistance to States, local municipalities, and not-for-profit organizations to
help communities meet critical challenges in the areas of education, public safety, human
needs, and the environment through volunteer service. The Corporation's major programs in
fiscal year 2009 were:

Senior Corps. The Senior Corps offers a network of programs that tap the rich experience, skills .
and talents of older citizens to meet community challenges. Senior Corps comprises the Retired
and Senior Volunteer Program, the Foster Grandparent Program, and the Senior Companion
Programs.

AmeriCorps. AmeriCorps provides opportunities for Americans to make an ongoing, intensive
commitment to service through the following programs:
    o   State, National, Tribes, and Territories (State and National) offers grants supporting a
        broad range of local service programs that engage thousands of Americans in intensive
        service to meet critical community needs.
    o   Volunteers in Service to America (VISTA) helps community organizations and public
        agencies create and expand programs that build capacity and ultimately bring low-
        income individuals and communities out of poverty.
    o   National Civilian Community Corps (NCCC) strengthens communities while developing
        leaders through direct, team-based national and community service.

Learn and Serve America. Learn and Serve America supports programs in schools, colleges, and
community-based organizations that link community service to educational objectives.
The Corporation for the most part administered its programs in fiscal year 2009 from the
following trust, gift and appropriated funds:

Trust and Gift Funds:
    o   National Service Trust (the Trust), from which the Corporation provided education
        awards and interest forbearance for volunteers under the AmeriCorps' State and
        National; NCCC; and VISTA programs.
    o   Gifts and Contributions, into which the Corporation deposited gifts and contributions
        from individuals and organizations for use in furthering the Corporation's goals.

Appropriated Funds:
    o   Operating Expenses, from which the Corporation funded the Senior Corps, AmeriCorps,
        and Learn and Serve programs.
    o   Salaries and Expenses, from which the Corporation funded its general administrative
        expenses.




                                               10
    o    Office of Inspector General, from which the Corporation funded the expenses of the OIG.

    o   VISTA Advance Payment Revolving Fund, from which the Corporation paid the living
        allowances for VISTA members enrolled under cost share agreements with sponsoring
        organizations. The Corporation is reimbursed for these costs by the sponsoring
        organization. Despite the account title, the VISTA Advance Payment Revolving Fund
        is not a revolving fund, but rather a general fund expenditure account.

On February 17, 2009, the President signed into law the American Recovery and Reinvestment
Act of 2009 (Recovery Act). The Recovery Act included funding for the use of the Corporation
to support an expansion of the AmeriCorps State and National and VISTA programs. As a
result of the passage of the Recovery Act, three additional appropriated funds were established
for fiscal year 2009:

    o   Operating Expenses, Recovery Act, from which the Corporation funded the increased
        AmeriCorps State and National and VISTA membership as a result of the Recovery
        Act.

    o   Salaries and Expenses, Recovery Act, which funded the Corporation's expenses to
        improve IT systems and administer the increased AmeriCorps State and National and
        VISTA membership.

    o    Office of Inspector General, Recovery Act, from which the Corporation funded the
        expenses of the OIG's Recovery Act oversight responsibilities.


    B. BASIS OF ACCOUNTING AND PRESENTATION
The accompanying financial statements report the financial position, re,sults of operations, cash
flows, and budgetary resources of the Corporation, as required by the Government
Corporation Control Act (31 USC 9106) and Executive Order 13331.

The accompanying Consolidated Statements of Financial Position, Operations and Changes in
Net Position, and Cash Flows have been prepared from the books and records of the
Corporation in accordance with accounting principles generally accepted in the United States
of America (GAAP) as applicable to Federal governmental corporations. These statements
include the Corporation's activities related to providing grants and other assistance to eligible
states, local governments, and not-for-profit organizations as well as education awards to
eligible national service participants.

The accompanying Combined Statements of Budgetary Resources (SBR) have been prepared
from the books and records of the Corporation in accordance with the form and content
requirements pertaining to it in the Office of Management and Budget (OMB) Circular No. A-
136, "Financial Reporting Requirements", and GAAP. GAAP, as it relates to the SBR, is
prescribed by the Federal Accounting Standards Advisory Board, which is the official
accounting standard-setting body for the Federal government.




                                                11
    C. BUDGETSANDBUDGETARYACCOUNTING
The activities of the Corporation are primarily ftmded through the annual Departments of
Labor, Health and Human Services, Education and Related Agencies Appropriation Act. The
Corporation's accolmting structure reflects both accrual and budgetary accolmting
transactions. Under the accrual method of accolmting, revenues are recognized when earned
and expenses are recognized when incurred, without regard to the actual collection or
payment of cash. Federal budgetary accOlmting recognizes the obligation of appropriations
and other ftmds upon the establishment of a properly documented legal liability, which, in
many cases, is different from the recording of an accrual-based transaction. The recognition of
budgetary accounting transactions is essential for compliance with legal controls over the use
of Federal funds.


    D. FUND BALANCE WITH TREASURY
Flmd Balance with Treasury (FBWT) represents the Corporation's cash accounts with the
Department of the Treasury (the Treasury). The Treasury processes cash receipts and
disbursements on behalf of the Corporation and the Corporation's accounting records are
reconciled with those of the Treasury on a regular basis. The Corporation's FBWT includes all
of its appropriated and trust ftmds.
The FBWT maintained in the National Service Trust is restricted to specific purposes, such as
paying service awards earned by eligible participants, and are not available for use in the
current operations of the Corporation. In addition, the majority of the funds received from
individuals and organizations for deposit in the Gifts and Contributions ftmd are restricted fOl;
particular uses, such as service projects.


    E. INVESTMENTS AND RELATED RECEIVABLES
By law, the Corporation may invest the funds of the National Service Trust in interest-bearing
Treasury securities guaranteed by the United States as to principal and interest. These
Treasury securities are referred to as "market-based," since they mirror actual Treasury
securities sold on the open market. They consist of Treasury notes, bonds, bills and one-day
certificates.
Since they are expected to be held-to-maturity, the Corporation's investments are valued at
cost and adjusted for the amortization of premiums and discounts. The premilUns and
discounts are recognized as adjustments to interest income, using the effective interest method.
Interest receivable represents amounts earned, but not received on investments held at year-
end. Prepaid interest is the amOlmt of interest earned on a security since the date of its last
interest payment up to the date the security is purchased by the Corporation. Such interest, if
any, at year-end is included in the interest receivable balance.


    F. ADVANCES TO OTHERS
The Corporation advances funds to non-federal entities, primarily in response to grantee
drawdown requests, to facilitate their authorized service activities. The cash payments to
grantees, in excess of amounts appropriately expended under the terms of the grant




                                                  12
agreements, are accounted for as advances. At the end of the fiscal year, the total amount
advanced to grantees is compared with the total Corporation-ftmded amolmt of grant expenses
properly incurred by the grantees. Grantee expenses are determined from reports submitted
by the grantees. For those grantees with advances exceeding expenses, the aggregate
difference is reported as the advance account balance.


    G. ACCOUNTS RECEIVABLE
Accolmts receivable represents amounts due to the Corporation primarily under Federal and
non-Federal reimbursable agreements, grantee audit resolution determinations, and
outstanding travel advances due from employees. An allowance for doubtful accOlmts is
established for reporting purposes based on past experience.


    H. PROPERTY AND EQUIPMENT
Property and Equipment is stated at full cost, including all costs related to acquisition,
delivery, and installation, less accumulated depreciation (or amortization). Property and
Equipment also includes assets acquired through capital leases, which are initially recorded at
the amount recognized as a liability for the capital lease at its inception. Normal maintenance
and repair costs on capitalized property and equipment are expensed when incurred. The
Corporation's general policy is to capitalize Property and Equipment if the initial acquisition
price is $50 thousand or more. Property and equipment with an estimated useful life that
extends beyond the year of acquisition is capitalized at historical cost and is depreciated (or
amortized) on a straight-line basis over estimated useful lives ranging from two to 10 years,
using the half-year convention.


    1. TRUST SERVICE AWARD LIABILITY
The Trust Service A ward Liability represents lmpaid earned, and expected to be earned,
education awards and eligible student loan interest forbearance costs, which are expected to be
used. These amounts relate to participants who have completed service or are currently
enrolled in an approved national service position and are expected to earn an award, based on
the Corporation's historical experience.


    J.   GRANTS PAYABLE
Grants are made to nonprofit organizations, educational institutions, states, mlmicipalities, and
other external organizations. Grants become budgetary obligations, but not liabilities, when
they are awarded. At the end of each fiscal year, the Corporation reports the total amount of
unreimbursed grantee expenses, which are properly payable lmder the terms of grant
agreements, as grants payable.


    K. ACCOUNTS PAYABLE
The Corporation records as liabilities all amounts that are likely to be paid as a direct result of a
transaction or event that has already occurred. Accounts payable represents amounts due to
entities for goods and services received by the Corporation, but not paid for at the end of the
fiscal year.



                                                    13
    L. ACTUARIAL FECA LIABILITY
The Federal Employees' Compensation Act (FECA) provides income and medical cost
protection to covered Federal civilian employees, NCCC and VISTA members injured on the
job, employees who have incurred a work-related occupational disease, and beneficiaries of
employees whose death is attributable to a job-related injury or occupational disease. Claims
incurred for benefits for Corporation employees and members under FECA are determined
and paid by the Department of Labor (DOL) and later billed to the Corporation. The
Corporation's actuarial liability for workers' compensation includes costs incurred, but
unbilled as of year-end, as calculated by DOL. The Corporation reimburses DOL for FECA
claims out of current appropriations upon receipt of a bill from DOL.


    M. OTHER LIABILITIES
Other liabilities include amounts owed but not paid at the end of the fiscal year for payroll and
benefits and VISTA stipends. Also included as other liabilities is the amount of claims for
benefits for Corporation employees under FECA that have been paid by DOL and billed to the
Corporation but have not yet been reimbursed to DOL.


    N. ACCRUED ANNUAL LEAVE
Annual leave is accrued as a liability based on amounts earned but not used as of the fiscal
year-end. Each year, the balance in the accrued annual leave account is adjusted to reflect
current year pay rates and leave balances. Annual leave is funded from current appropriations
when used. As unused annual leave is used in the future, financing will be obtained from
appropriations current at that time. Sick leave and other types of non-vested leave are also
expensed when used.


    O. ADVANCES FROM OTHERS
Advances from others consist of advances from other Federal agencies and the public related
to interagency and cost share agreements into which the Corporation entered to provide
services.


    P. NET POSITION
Net position is comprised of the Corporation's unexpended appropriations and its cumulative
results of operations. Unexpended appropriations reflect the balance of appropriated
authority granted to the Corporation against which no outlays have been made. Cumulative
results of operations represent the net differences between revenues and expenses from the
inception of the Corporation.


    Q. REVENUES
Appropriated Capital Used. The Corporation recognizes its use of appropriated capital as
revenue at the time it is expended to pay program or administrative expenses. Appropriations
expended for property and equipment are recognized as used when the property is purchased.
Appropriated capital not expended within five fiscal years is no longer available for obligation
and is cancelled. Unpaid obligations recorded against cancelled appropriated capital are paid
from currently available appropriated funds as payments.




                                               14
Appropriations received for the Corporation's Trust are recognized as revenue when received
in the Trust Fund. Trust appropriations do not expire with the passage of time and are
retained by the Corporation in the Trust until used for eligible education service award
purposes.
Interest on Investments. Interest income is recognized when earned. Treasury notes and
bonds pay interest semi-annually, based on the stated rate of interest. Interest on Treasury
bills is paid at maturity. Interest income is adjusted by amortization of premiums and
discounts using the effective interest method.
Revenue from Services Provided. The Corporation also receives income from reimbursable
service agreements that is recorded as revenue from services provided. Revenue from services
provided is recognized when earned, i.e., goods have been delivered or services rendered.
Other Revenue. Other revenue consists of gifts and donations for the support of Corporation
operations or service projects from individuals and organizations.

    R. RETIREMENT BENEFITS
The Corporation's employees participate in either the Civil Service Retirement System (CSRS)
or the Federal Employees Retirement System (FERS). FERS was established by the enactment
of Public Law 99-335. Pursuant to this law, FERS and Social Security automatically cover most
employees hired after December 31,1983. Employees hired prior to January 1,1984, elected to
join FERS and Social Security or remained in the CSRS.

For employees covered by CSRS, the Corporation contributes 7.0 percent of their basic pay.
For those employees covered by FERS, the Corporation contributes 11.2 percent of their gross
pay towards retirement. Employees are allowed to participate in the Federal Thrift Savings
Plan (TSP). For employees under FERS, the Corporation contributes an automatic one percent
of basic pay to TSP and matches employee contributions up to an additional 4 percent of pay,
for a maximum Corporation contribution amounting to 5 percent of pay. Employees under
CSRS may participate in the TSP, but will not receive either the Corporation's automatic or
matching contributions.

The Corporation made retirement contributions of $419 and $473 thousand to the CSRS, and
$7.8 and $8.2 million to FERS and TSP in fiscal years 2009 and 2008, respectively.

    S. INCOME TAXES
As a Federal entity, the Corporation is exempt from all income taxes imposed by any
governing body, Federal, State, commonwealth, local, or foreign government.

    T. USE OF ESTIMATES
The preparation of financial statements in accordance with GAAP requires management to
make certain estimates. These estimates affect the reported amounts of assets and liabilities at
the date of the financial statements and the reported amounts of revenues and expenses during
the reporting period. Actual results could differ from these estimates.

    U. RECLASSIFICATIONS
Certain prior year amounts have been reclassified to conform to current year presentation.




                                               15
NOTE 2 - FUND BALANCE WITH TREASURY
u.s. Government cash is accounted for on an overall consolidated basis by the U.s. Department
of Treasury. The Fund Balance with Treasury line on the Statement of Financial Position
consists of the following:
   •   Appropriated Funds - Appropriated funds are received through congressional
       appropriations to provide financing sources for the Corporation's programs on an
       annual, multi-year, and no-year basis.
   •   Trust Funds - Trust funds are accounts designated by law for receipts earmarked for
       specific purposes and for the expenditure of these receipts. Funds from the National
       Service Trust may be expended for the purpose of providing an education award or
       student loan interest forbearance payment and are made directly to a qualified
       institution (college, university, or other approved educational institution, or a lending
       institution holding an existing student loan) as deSignated by the participant. The
       National Service Trust also pays awards under the President's Freedom Scholarship
       Program.
   •   Gift Funds - Gift Funds are funds received from individuals and organizations as
       donations in furtherance of the purposes of national service laws.




                                               16
NOTE 2 - FUND BALANCE WITH TREASURY - CONTINUED




                                    17
NOTE 3 - NATIONAL SERVICE TRUST INVESTMENTS AND RELATED RECEIVABLES
The composition of National Service Trust Investments and Related Receivables at September 30 is
 as follows:




At September 30,2009, the notes held at year-end had an interest rate range of 1.375% to
6.50% and an outstanding maturity period of approximately one day to four years. The
bills held at year-end had an interest rate range of 0.035% to 1.295% and were all due to
mature within 162 days. The par values of these bills range from $.40 million to $30.70
million.

As required by the Strengthen AmeriCorps Program Act, beginning in fiscal 2003, the
Corporation has set aside in reserve a portion of the funds in the National Service Trust for
use in the event that its estimates used to calculate obligational amounts for education
awards prove to be too low. As of September 30, 2009, $50.197 million of the Corporation's
investment account has been set aside for this reserve.




                                              18
NOTE 3 - TRUST INVESTMENTS AND RELATED RECEIVABLES - CONTINUED


Investments held at September 30 mature according to the following schedule:




NOTE 4 - ACCOUNTS RECEIVABLE, NET




NOTE 5 - PROPERTY AND EQUIPMENT, NET




                                               19
NOTE 5 - PROPERTY AND EQUIPMENT, NET - CONTINUED




NOTE 6 - TRUST SERVICE AWARD LIABILITY
Individuals who successfully complete terms of service in AmeriCorps programs earn
education awards, which can be used to make payments on qualified student loans or for
educational expenses at qualified educational institutions. The awards, which are available for
use for a period of up to seven years after the benefit has been earned, are paid from the
National Service Trust. The National Service Trust also pays forbearance interest on qualified
student loans during the period members perform community service, as well as awards tmder
the President's Freedom Scholarship Program. The award liability components related to
education awards and interest forbearance have been adjusted, based on historical experience,
to reflect the fact that some eligible participants may not use these benefits. The Service Award
Liability was composed of the following as of September 30:




 Education awards                                      $     1,501,414 $       1,335,254
 Interest forbearance                                           48,209           42,707
 President's Freedom Scholarship Program                        22,527           22,527
 Total estimated service award liability                     1,572,150         1,400,488




The net Service Award Liability as of September 30, 2009, increased by approximately $20.7
million from the net Service Award Liability as of September 30, 2008. This change was largely
due to new member enrollments and an increase in the number of members still serving during
the year. Past Corporation appropriations made amounts from the National Service Trust
available for $1,000 scholarships for high school students known as Presidential Freedom
Scholarships. To fund each scholarship, a local community or corporate source matched the
$500 portion of the scholarship provided by the Corporation. The program was discontinued in
fiscal 2007; however, because students have up to seven years to use the scholarship, some
payments will continue to be made over the next several years.



                                                  20
NOTE 7 -OPERATING LEASES
The Corporation leases office space through the General Services Administration (GSA). GSA
charges the Corporation a Standard Level Users Charge that approximates commercial rental
rates for similar properties. The NCCC also leases housing facilities for its campuses.
Additionally, the Corporation leases motor vehicles on an annual basis through GSA tmder an
Interagency Fleet Management Service agreement for the NCCC. Commitments of the
Corporation for future rental payments tmder operating leases at September 30 are as follows:




  2009    $            $         $           $         - $   8,351 $     543 $      139 $       9,033
  2010         9,215       504         110        9,829      8,602       562        122         9,286
  2011         9,491       521         107       10,119      8,860       581        126         9,567
  2012         9,776       539          99       10,414      9,125       602        122      9,849
  2013        10,069       557          91       10,717      9,399       623        114     10,136
  2014        10,371       576          90       11,037




NOTE 8 -ACTUARIAL FECA LIABILITY
The Corporation's actuarial liability for future workers' compensationbenefits under FECA was
$11.365 and $11.638 million as of September 30, 2009 and 2008, respectively. The amOlmt
includes the expected liability for death, disability, medical, and miscellaneous costs for
approved compensation cases. The actuarial liability is determined using a method that utilizes
historical benefit payment patterns related to a specific incurred period to predict the ultimate
payments related to that period. Consistent with past practice, these projected annual benefit
payments have been discounted to present value using the Office of Management and Budget's
economic assumptions for 10-year Treasury notes and bonds.




                                                  21
NOTE 9 - NET POSITION
Net position consists of unexpended appropriations and cumulative results of operations.
Component balances are separately maintained for the Gift Fund, Trust Fund and
Appropriated Funds.




                                             22
NOTE 10 - APPROPRIATIONS RECEIVED BY THE NATIONAL SERVICE TRUST
For fiscal year 2009, the National Service Trust received $131.075 million under the Omnibus
Appropriations Act, 2009 (Public Law 111-8) and an additional $40.000 million under the
American Recovery and Reinvestment Act of 2009 (Public Law 111-5). For fiscal year 2008 the
National Service Trust received $122.539 million under the Consolidated Appropriations Act, 2008
(Public Law 110-161). The Acts also authorized the Corporation to transfer additional amounts
from subtitle C program funds to the National Service Trust if necessary to support the
activities of national service participants. The Corporation transferred $3.857 million and
$16.246 million to the Trust under this provision in fiscal year 2009 and 2008, respectively.




NOTE 11 - EXPENSES
Using an appropriate cost accounting methodology, the Corporation's expenses have been
allocated among its major programs, at the sub-program level. Costs for each sub-program
are reported on separately:

AmeriCorps includes the State, National, Tribes, and Territories (StateiNational); National Civilian
Community Corps (NCCC)i and Volunteers In Service To America (VISTA) programs. The
State/National sub-program includes grant expenses, as well as direct and allocated personnel
and administrative costs including AmeriCorps recruitment and National Service Trust
operations. The NCCC sub-program includes member stipend and benefits, and direct and
allocated personnel and administrative costs including AmeriCorps recruitment and National
Service Trust operations. The VISTA sub-program includes grant expenses, member stipend
and benefits, as well as direct and allocated personnel and administrative costs including
AmeriCorps recruitment and National Service Trust operations.

The National Senior Service Corps (NSSC) includes the Foster Grandparent Program (FGP);
Senior Companion Program (SCP); and the Retired and Senior Volunteer Program (RSVP). The
NSSC responsibility segment includes grant expenses, as well as direct and allocated personnel
and administrative costs for RSVP, FGP, and SCPo

Learn and Serve America includes grant expenses, as well as direct and allocated personnel
and administrative costs, for the Learn and Serve America Program, the President's Student
Service Challenge, and National Service Leader Schools. The President's Freedom
Scholarships are included in the National Service Award expense component.

Other Program Costs
National Service Award Expense - the National Service Award expense component consists of the
Corporation's estimated expense for education awards based on the increase in its service
award liability during the year, interest forbearance costs on qualified student loans during the
period members perform community service, as well as disbursements for the President's
Freedom Scholarship Program (see Note 12). No indirect costs have been allocated to the
National Service Award expense component.

Pass-through Grants - the Corporation has reimbursable agreements with state agencies
whereby the Corporation awards and administers grants to a list of grantees selected and




                                                 23
NOTE 11 - EXPENSES - CONTINUED
funded by the State. In addition, prior to fiscal 2007, the Corporation's annual appropriation
included Congressionally-earmarked grants. No indirect costs have been allocated to these
pass-through grants.

The Office of Inspector General (OIG) receives a separate appropriation. No indirect costs have
been allocated to the OIG.




AmeriCorps:
  State/National                                    $ 484,486               $ 459,584
  NCCC                                                 44,830                  39,334
  VISTA                                               132,166                 131,506
     Subtotal                                                   $ 661,482               $ 630,424
National Senior Service Corps:
   Retired and Senior Volunteer Program                66,783                  66,284
   Foster Grandparent Program                         120,381                 119,396
   Senior Companion Program                         $ 51,641                $ 51,114
     Subtotal                                                     238,805                 236,794
Learn and Serve America                                            47,812                  42,436
                                                                     682




                                               24
                                                                   $   290,948   $            $   29,413   $   61,081   $   111,055   $   47,396   $   42,728   $   682   $
                                                                                     11,759       53,656
      Service award expense                                            152,312        2,885       16,465
      Total Grant and Related Expense                                  443,260       14,644       99,534       61,081       111,055       47,396       42,728       682

      Administrative Expense
      Federal employee salaries & benefits                              26,786       11,894       20,665        2,860         5,192        2,217        3,372                 3,678       76,664
      Travel & transportation                                              878        2,530        3,792          699         1,278          551          213                    94       10,035
      Rent, communications, & utilities                                  3,935        4,235          934          448           813          347          299                   369       11,380
      Program analysis & evaluation                                        744          677          677          218           392          168          507                              3,383
      Printing & reproduction                                               59           91           74           27            28            9                                             296
      Other services and expenses                                        7,602        9,676        6,181        1,189         1,240          755         571                  1,861       29,075
      Supplies & materials                                                 459        1,064          172          161           201          120          44                     43        2,264
      DepreCiatIOn, amortIzatIOn & loss on dISpOSItIon ot assets          753            IY          135           YY           I~U          77           bY                               1,:;:;:1
      Bad debt                                                              10                        2                           2                                                            17



N
<J1




                                                                   $   278,649   $            $   29,062   $   60,763   $   111,231   $   47,329   $   37,509   $   163   $           $
                                                                            57        5,645       53,097
      Service award expense                                            141,623        3,851       15,316
      Total Grant and Related Expense                                  420,329        9,496       97,475       60,763       111,231       47,329       37,509       163

      Administrative Expense
      Federal employee salaries & benefits                              26,339       13,637       21,994        3,104         5,677        2,415        3,423                 3,632       80,221
      Travel & transportation                                              967        3,734        4,692          113           201           86          109                   137       10,039
      Rent, communications, & utilities                                  3,716        2,459          888          453           829          353          263                   360        9,321
      Program analysis & evaluation                                      1,049          954          954          307           553          237          715                              4,769
      Printing & reproduction                                               57           83           77           43            31           13                                             309
      Other services and expenses                                        5,589        7,121        4,892        1,311           523          532         292                  2,069       22,329
      Supplies & materials                                                 618        1,838          362           63           117           50          41                     86        3,175
      Depreciation, amortization & loss on disposition of assets           970           13          181          134           246          104          83                               1,731
      Bad debt
NOTE 12 -NATIONAL SERVICE AWARD EXPENSE
Members serving in approved national service positions are eligible to earn a service award to
pay for qualified education expenses. The National Service Trust also pays interest
forbearance costs on qualified student loans during the period that members are serving in an
approved national service position. The Corporation estimates the expense for national service
awards based on the increase in its cumulative service award liability during the year (see Note
6). The total service award liability as of September 30, 2009 and 2008, respectively, has been
adjusted to reflect the fact that earned awards are not always used.




NOTE 13 - CHANGE IN UNEXPENDED APPROPRIATIONS, NET




 Unexpended Appropriations, Beginning Balance                   $     769,016     $     828,597


 Increases:
 Appropriations Received, Net of Trust                              1,090,866           871;558


 Decreases:
 Appropriated Capital Used                                           (770,708)         (748,580)
 Appropriations Transferred to Trust Fund (net of recissions)        (171,075)         (122,539)
 Program Funds Transferred to Trust                                    (3,857)           (16,246)
 Recissions and Cancellations                                         (23,286)
 Total Decreases                                                     (968,926)         (931;139)

 Change in Unexpended Appropriations                                  121,940            (59,581)




                                                 26
NOTE 14 - CONTINGENCIES
The Corporation is a party to various routine administrative proceedings, legal actions, and
claims brought by or against it, including threatened or pending litigation involving labor
relations claims, some of which may ultimately result in settlements or decisions against the
Corporation. In the opinion of the Corporation's management and legal counsel, there are no
proceedings, actions, or claims outstanding or threatened that would materially impact the
financial statements of the Corporation.
Certain legal matters to which the Corporation is a party may be administered and, in some
instances, litigated and paid by other Federal agencies. Generally, amounts paid in excess of
$2.5 thousand for Federal Tort Claims Act settlements or awards pertaining to these litigations
are funded from the Treasury Judgment Fund (TJF). Although the ultimate disposition of any
potential TJF proceedings cannot be determined, management does not expect that any liability
or expense that might ensue would be material to the Corporation's financial statements.


NOTE 15 - UNDELIVERED ORDERS AT FISCAL YEAR-END
The Corporation's undelivered orders at September 30, 2009 and 2008 were $894,283 and
$804,283 thousand, respectively.


NOTE 16 - APPORTIONMENT CATEGORIES OF INCURRED OBLIGATIONS
An apportionment is a distribution by OMB of amounts available for obligation. OMB
apportions Corporation funds on a quarterly basis. Obligations incurred during FY 2009 and
2008 were:




  2009                                             $   1,232,085   $     12,526   $   1,244,611


  2008                                             $   1,057,252   $      7,633   $   1,064,885




                                              27
~Clifton
~ Gunderson LLP
          Certified Public Accountants & Consultants




                   Independent Auditor's Report on Compliance and Other Matters


To the Board of Directors
 and Inspector General
Corporation for National and Community Service

We have audited the financial statements of the Corporation for National and Community
Service (Corporation) as of and for the year ended September 30, 2009, and have issued our
report thereon dated November 10, 2009. We conducted our audit in accordance with auditing
standards generally accepted in the United States of America; the standards applicable to
financial audits contained in Government Auditing Standards, issued by the Comptroller General
of the United States; and, Office of Management and Budget (OMB) Bulletin 07-04, Audit
Requirements for Federal Financial Statements, as amended.

The management of the Corporation is responsible for complying with laws and regulations
applicable to the Corporation. As part of obtaining reasonable assurance about whether the
Corporation's financial statements are free of material misstatements, we performed tests of the
Corporation's compliance with certain provisions of laws and regulations, non-compliance with
which could have a direct and material effect on the determination of financial statement
amounts, and certain other laws and regulations specified in OMB Bulletin 07-04, as amended.
We limited our tests of compliance to those provisions and we did not test compliance with all
laws and regulations applicable to the Corporation. Providing an opinion on compliance with
certain provisions of laws and regulations was not an objective of our audit, and, accordingly,
we do not express such an opinion.

The results of our tests of compliance with laws and regulations described in the preceding
paragraph disclosed no instances of reportable noncompliance or other matters that are
required to be reported under Government Auditing Standards or OMB Bulletin 07-04, as
amended.

                                                 ********************************


This report is intended solely for the information and use of the management of the Corporation,
the Office of Inspector General, GAO, OMB and Congress, and is not intended to be and should
not be used by anyone other than these specified parties.




Calverton, Maryland
November 10, 2009



1171 0 Beltsville Drive
Suite 300
Calverton, MD 20705-3106
tel: 301-931-2050                                                                           Momb .. r of

fax: 301-931-1710                                                 28
www.cIiftoncpa.com                                Offices in 17 states and Washington, DC   •              International
~Clifta
~ Gund~rson LLP
           Certified Public Accountants & Consultants




                                Independent Auditor's Report on Internal Control


To the Board of Directors
 and Inspector General of the
Corporation for National and Community Service


We have audited the financial statements of the Corporation for National and Community
Service (Corporation) as of and for the year ended September 30, 2009, and have issued our
report thereon dated November 10, 2009. We conducted our audit in accordance with the
auditing standards generally accepted in the United States of America; the standards applicable
to financial audits contained in Government Auditing Standards, issued by the Comptroller
General of the United States; and, Office of Management and Budget (OM B) Bulletin No. 07-04,
Audit Requirements for Federal Financial Statements, as amended.

In planning and performing our audit, we considered the Corporation's internal control over
financial reporting by obtaining an understanding of relevant internal controls, determined
whether these internal controls had been placed in operation, assessed control risk, and
performed tests of controls in order to determine our auditing procedures for the purpose of
expressing our opinion on the financial statements and to comply with OMB Bulletin No. 07-04,
as amended, but not for the purpose of expressing an opinion on the effectiveness of internal
control over financial reporting. We did not test all internal controls relevant to operating
objectives as broadly defined by the Federal Managers' Financial Integrity Act (FMFIA) (31
U.S.C. 3512), such as those controls relevant to ensuring efficient operations. The objective of
our audit was not to provide assurance on internal control. Accordingly, we do not express an
opinion on the effectiveness of the Corporation's internal control over financial reporting.

A control deficiency exists when the design or operation of a control does not allow
management or employees, in the normal course of performing their assigned functions, to
prevent or detect misstatements on a timely basis. A significant deficiency is a control
deficiency, or combination of control deficiencies, that adversely affects the entity's ability to
initiate, authorize, record, process, or reliably report financial data in accordance with generally
accepted accounting principles such that, there is more than a remote likelihood that a
misstatement of the entity's financial statements that is more than inconsequential will not be
prevented or detected by the entity's internal control.

A material weakness is a significant deficiency, or combination of significant deficiencies, that
results in more than a remote likelihood that a material misstatement of the financial statements
will not be prevented or detected by the entity's internal control.

Our consideration of internal control over financial reporting was for the limited purpose
described above and would not necessarily identify all deficiencies in internal control over
financial reporting that might be significant deficiencies or material weaknesses. We did not
identify any deficiencies in internal control over financial reporting that we consider to be
material weaknesses, as defined above.

11710 Beltsville Drive
Sliite 300
Calverton, Maryland 20705
tel: 301-931-2050                                                                            Membar at


fax: 301-931-1710

www.cliftoncpa.com
                                                                  29

                                                   Offices in 17 states and Washington, DC
                                                                                             II          International
This report is intended solely for the information and use of the management of the Corporation,
the Office of Inspector General, OMB, the Government Accountability Office and Congress, and
is not intended to be and should not be used by anyone other than these specified parties.



~~LL/J
Calverton, Maryland
November 10, 2009




                                              30
                 APPENDIX
____________________________________________
CORPORATION’S RESPONSE TO DRAFT REPORT
                                    NATIoNAL&:
                                    COMMUNITY
                                    SERVICEttxt


MEMORANDUM

Date:      November 12,2009

To:        Ken Bach, Acting Inspector General

From:      William Anderson, Acting Chief Financial Officer

Subject:   Draft Report on the Audit of the Corporation's Fiscal Year 2009 Financial Statements


Thank you for the opportunity to comment on the draft report on the audit of the Corporation's
fiscal 2009 financial statements. The financial statements, which include supplemental
schedules on the National Service Trust, received an unqualified opinion. Similarly, the report
on internal control and report on compliance with laws and regulations noted no significant
deficiencies or reportable conditions. Importantly, the audit confirmed that the Corporation
resolved the significant deficiency reported in the 2008 audit related to the continuity of
operations, application development, and change control management.

Executing sound financial stewardship of the Corporation's resources is an essential element for
achieving our mission of improving lives, strengthening communities, and fostering civic
engagement through service and volunteering. While we are proud of these audit results, we
recognize that the work before us is challenging and we need to continue to improve our
operations if we are to achieve the expansion envisioned by the Edward M. Kennedy Serve
America Act. To that end, we will continue our work with the Corporation's Office of Inspector
General and its financial auditors to identify areas where efficiencies can be made and internal
controls improved.

The Corporation would also like to express its appreciation for the hard work your staff and the
staff of Clifton Gunderson made on the 2009 audit. Without this collaborative effort we would
not have been able to achieve the tight deadline for completing the audit.
